No.

IN THE
SUPREME COURT OF THE UNITED STATES

Jason Hunter Bell

— PETITIONER

(Your Name)
^ALL
MACY'S CORP. SERVICE/MACY'S WESTFIEL
BROWARD,RAYMOND C. VEGA, III, individually
SHARI RHODES, individually

— RESPONDENT(S)

PROOF OF SERVICE

I JASON HUNTER BELL

__________ , do swear or declare that on this date,
, as required by Supreme Court Rule 29 I have
, 20
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
To Defendant's Counsel, Jennifer A. Schwart Esq. and Shayla N. Waldon Esq. at Law Firm Jackson Lewis P.C..
ONE BISCAYNE TOWER, SUITE 3500, TWO SOUTH BISCAYNE BLVD., MIAMI, FLORIDA 33131-2374
CERTIFIED MAIL#

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

J)qr\e

IQ

2031

a

(Signature)

